No. 20-1434

In the
Supreme Court of the United States
LESLIE RUTLEDGE, ET AL.,
v.

Petitioners,

LITTLE ROCK FAMILY PLANNING SERVICES, ET AL.,
Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Eighth Circuit
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Brief of the State
of Missouri and Twenty-One Other States as Amici Curiae in Support of Petitioners
in the above captioned case contains 5,716 words as determined by the word counting
feature of Microsoft Word, excluding the parts of the brief that are exempted by
Supreme Court Rule 33.1(d).

May 13, 2021

Respectfully submitted,
s/ D. John Sauer
D. John Sauer
Solicitor General
Counsel of Record
OFFICE OF THE MISSOURI
ATTORNEY GENERAL
Supreme Court Building
207 West High Street
P.O. Box 899
Jefferson City, MO 65102
John.Sauer@ago.mo.gov
(573) 751-8870
Counsel for Amici Curiae

